     AUDIT REPORT

 U.S. Fish and Wildlife Service
   Federal Assistance Grants
      Administered by the
        State of Oregon,
Department of Fish and Wildlife,
  from July 1, 2001, through
         June 30, 2003




    Report No. R-GR-FWS-0012-2004
                 SEPTEMBER 2005
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191




                                                                                September 2, 2005
                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Oregon, Department of Fish and Wildlife, from
           July 1, 2001, through June 30, 2003 (No. R-GR-FWS-0012-2004)

        This report presents the results of our audit of costs incurred by the State of Oregon,
Department of Fish and Wildlife (Department) under Federal Assistance grants from the U.S.
Fish and Wildlife Service (FWS). The audit included claims that totaled approximately
$39.5 million on FWS grants that were open during the State’s fiscal years ended June 30, 2002
and 2003 (see Appendix 1). The audit also covered the Department’s compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of State fishing and hunting license revenues and the reporting of program income.

        We found that the Department complied with applicable grant accounting and regulatory
requirements except for the following: a potential diversion of license revenues of $1.6 million; a
drawdown of $67,000 based on an advance payment; personal property management
deficiencies; a lack of project level accounting on one grant; and internal control weaknesses.

       Our draft audit report contained an additional finding regarding the use of Federal
Assistance funds to maintain lands acquired under the Land and Water Conservation Fund Act
(Act). However, since FWS has now determined that the Act does not prohibit the use of
Federal Assistance funds for this purpose, we have excluded the finding from the final report.

        FWS Region 1 provided a response to the draft of this report on July 22, 2005, which
included a copy of the Department’s June 23, 2005 response to the FWS. FWS generally
concurred with the recommendations. We summarized the FWS and Department responses after
the recommendations and added our comments regarding the responses. The status of the
recommendations is summarized in Appendix 3.
        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by December 1, 2005. Your
response should include the information requested in Appendix 3. If you have any questions
regarding this report, please contact Mr. Robert Leonard, Audit Team Leader, at (916) 978-5646,
or me at (703) 487-5345.

cc:   Regional Director, Region 1
       U.S. Fish and Wildlife Service




                                               2
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. The Acts
also specify that State hunting and fishing license revenues cannot be used for any purpose other
than the administration of the State’s fish and game department.

Objectives, Scope, and Methodology
The objectives of our audit were to evaluate:

           ¾ The adequacy of the Oregon Department of Fish and Game (Department) accounting
             system and related internal controls;
           ¾ The accuracy and eligibility of the direct and indirect costs claimed under the Federal
             Assistance grant agreements with FWS;
           ¾ The adequacy and reliability of the Department’s hunting and fishing license fees
             collection, certification, and disbursement processes;
           ¾ The adequacy of the Department’s asset management system and related internal
             controls with regard to purchasing, control, and disposal;
           ¾ The adequacy of the State’s compliance with the Acts’ assent legislation
             requirements; and
           ¾ Other issues considered sensitive and/or significant by FWS.

We performed our audit at the Department’s headquarters in Salem, Oregon. The audit work at
the Department included claims that totaled approximately $39.5 million on 144 of the 148 2
FWS grants that were open during the State’s fiscal years (SFYs) ended June 30, 2002 and 2003
(see Appendix 1). We also visited two regional offices, three wildlife areas and four fish
hatcheries (see Appendix 2).

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants, interviews with employees to ensure that personnel costs charged to
the grants were supportable, and a review of the Department’s use of hunting and fishing license
revenues to determine whether the revenues had been used for the administration of the
Department. In addition, we reviewed the accounting system and related internal controls over
the grantee’s financial management system and transactions related to purchases, other direct


1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively
2
    There were no costs claimed on 4 of the 148 grants during the audit period.


                                                            3
costs, drawdowns of reimbursements, in-kind contributions, program income, and equipment.
We did not evaluate the economy, efficiency, or effectiveness of the Department’s operations.
We also relied on the work of the auditors (State Auditors) that conducted the State of Oregon
Single Audits for SFYs 2002 and 2003, to the extent possible, in order to avoid a duplication of
effort. Based on our review of the audit work of the State Auditors, we were able to reduce the
amount of our internal control testing and reduce the amount of audit work in the areas of
hunting and fishing license fee revenues and payroll and fringe benefit expenditures.

Prior Audit Coverage
On August 4, 1999, we issued audit report No. 99-E-727 “U.S. Fish and Wildlife Service Federal
Aid Grants to the State of Oregon Department of Fish and Wildlife for Fiscal Years Ended
June 30, 1995, and 1996.” The report questioned grant expenditures of $215,751 and discussed
various regulatory and grant compliance issues, the potential diversion of license revenue to the
animal damage control program, and other matters.

In February 2003 and February 2004, the State Auditors issued Single Audit reports on the State
of Oregon for SFY’s 2002 and 2003, respectively. The audits included selected Department
financial accounts and transactions. 3 The audits did not question any costs relative to the FWS
Federal Assistance grant programs. However, the audits did identify two financial statement
findings regarding license sales, as follows: (1) the Department did not have a process in place to
review point of sale (POS) cancellations and (2) the Department headquarters licensing office
did not perform reconciliations between the POS licensing system and the cash register system
for fax and mail order license sales. The State Auditors also issued 13 other management letters
and audit reports to the Department within the past 5 years.

We reviewed these reports and followed up on all significant findings related to the FWS Federal
Assistance grant funds and programs to determine whether they had been resolved. We
determined that the Department has not implemented the State Auditors’ recommendation to
reconcile the POS licensing system and the cash register system for fax and mail order license
sales. This finding is addressed in the Results of Audit section of this report.




3
  The State Auditors reviewed the following Department accounts: hunter and angler licenses and fees; federal
revenues; employee payroll and fringe benefits (retirement contributions; and medical, dental, and life insurances);
professional services; and agency program-related supplies.


                                                          4
                                   Results of Audit
We found that the Department was generally in compliance with applicable regulatory and grant
accounting requirements with respect to the following:

       ¾ The Department’s accounting system and related internal controls adequately and
         accurately accounted for grant and license fee receipts and disbursements.
       ¾ The Department’s direct and indirect costs claimed under the Federal Assistance
         grant agreements with FWS were adequately recorded and supported.
       ¾ The Department’s hunting and fishing license fees collection, certification, and
         disbursement processes were adequate and reliable.
       ¾ The State had adequate assent legislation in place that prohibited the use of license
         fees for any purposes other than the administration of the Department.

However, we identified the following issues:

       A.     The Oregon Legislature enacted legislation that could result in the diversion of
              license revenues of about $1.6 million.

       B.     The Department did not account for grant costs at the project level as required by
              the grant agreement for one of the grants we reviewed.

       C.     The Department made a drawdown of $67,000 based on an advance payment to
              another State agency before ensuring that the work required under the grant was
              actually completed.

       D.     The Department’s asset management system for personal property (equipment)
              needs to be improved.

       E.     The Department had internal control weaknesses in the areas of (1) the
              reconciliation of the POS and cash register systems for fax and mail order license
              sales and (2) access to the general support computer system.




A.    Potential Diversion of License Revenues

The Oregon Legislature mandated that the net proceeds from the sale of the Department’s
Portland headquarters building be deposited in the General Fund. Since the acquisition of the
building was financed with hunting and fishing license and tag revenues, the legislation would
result in the diversion of such revenues.

Federal regulations (50 CFR § 80.4) provide that revenues from license fees paid by hunters and
fishermen shall not be diverted to purposes other than the administration of the State fish and


                                               5
wildlife agency. In addition, the Oregon Revised Statutes (ORS 496.300) provides that all
moneys in the State Wildlife Fund, which receives hunting and fishing license revenues, be
appropriated continuously to the State Fish and Wildlife Commission to carry out the State’s
wildlife laws.

According to the regulations (50 CFR 80.4), license revenues include income from the sale of
real property acquired with license revenues. A diversion of license revenues occurs when any
portion of these revenues are used for any purpose other than the administration of the State fish
and wildlife agency. If a diversion occurs, the State becomes ineligible to participate under the
Acts from the date the FWS Director declares the diversion until the diverted license revenues
are restored or an equal amount is returned and made available for the administration of the State
fish and wildlife agency.

In 2001, the Oregon Legislature enacted Senate Bill 50, which required the Department to sell its
Portland headquarters building and to relocate the office staff to Salem. The legislation also
required that the net proceeds from the sale be used to pay for the relocation costs and that any
remaining proceeds be deposited to the General Fund. The Department sold the office building
in July 2003 for $6.5 million and the relocation costs, as of February 2005 4 , were $4.9 million,
leaving net proceeds of $1.6 million.

A diversion of $1.6 million in license revenues will occur if the net proceeds from the sale of the
Portland headquarters building are deposited in the General Fund. This would result in the State
becoming ineligible to participate in the programs under the Acts. Department officials have
prepared a bill for submittal to the Legislature that proposes revising the language in the
legislation to credit the net proceeds to the State Wildlife Fund, which is used for hunting and
fishing license revenues.

           Recommendation
           We recommend that FWS monitor the Department’s efforts to have the legislation
           modified so that the net proceeds remaining from the sale of the Portland headquarters
           building are retained in the State Wildlife Fund. FWS will need to determine whether the
           Department is ineligible to participate in the Acts’ programs if the proposed legislation is
           not enacted and net proceeds are deposited into the General Fund.

           Department Response
           The Department stated that it concurred with the finding and recommendation and was
           optimistic that the bill would be passed. The Department further stated that the net
           proceeds would remain within the State Wildlife Fund.




4
    The Department has not made a final determination of the total relocation costs.


                                                            6
       FWS Response
       FWS stated that it concurred with the recommendation and with the Department’s effort
       in submitting the bill to ensure that the proceeds from the sale of the Portland
       headquarters office remain in the State Wildlife Fund.

       OIG Comments
       While FWS concurred with the recommendation and the Department’s response,
       additional information is needed concerning the specific actions taken or planned to
       resolve the finding and to implement the recommendation. This information should be
       included in the corrective action plan.

B.   Project Level Accounting

The Department did not account for grant costs at the project level on one of the eight grants
where project level accounting was required by the grant agreements. The Southwest Oregon
Research grant (No. W-90-R-9), in the amount of $361,794, was comprised of three separate
project components (biology of black bears, ecology of mountain lions, and biology of black
tailed-deer), each having a separate budget. Instead of reporting costs for each project so that
actual costs could be compared to budgeted costs, the Department accounted for and reported
costs in total at the grant level.

Title 43 CFR § 12.70(c) requires a grantee to “Obtain approval of the awarding agency whenever
any of the following changes is anticipated… (ii) Unless waived by the awarding agency,
cumulative transfers among direct cost categories, or, if applicable, among separately budgeted
programs, projects, functions, or activities which exceed or are expected to exceed ten percent of
the current total approved budget, whenever the awarding agency’s share exceeds $100,000.”

Although the Department has an internal recordkeeping system to accumulate and track costs at
the project level, the Department’s program staff did not request the accounting staff to establish
separate project cost accounting codes for the grant. As a result, the Department was unable to
provide FWS with an accurate record of the total costs of each project component for the
Southwest Oregon Research grant, and we could not determine whether the Department was in
compliance with the requirements of 43 CFR §12.70(c).

       Recommendation
       We recommend that FWS require the Department to account for and report grant costs at
       the project level for the Southwest Oregon Research grant.

       Department Response
       The Department stated that it “somewhat concurred” with the finding and
       recommendation, adding that FWS did not notify the Department of the project level
       accounting requirement until after the Department had signed the agreement. The


                                                 7
        Department also stated that, effective July 1, 2005, it would identify cost accounting at
        the sub-study or project level for the remaining balance of identified work covered under
        this 5-year grant.

        FWS Response
        FWS stated that it concurred with the recommendation, it has required project level
        accounting for the grant and the Department has complied with the requirement. FWS
        also acknowledged that it had not notified the Department of the project level accounting
        requirement until about 8 months after the Department signed the agreement.

        OIG Comments

        FWS and the Department concurred with the recommendation and took actions to
        implement project level accounting for this grant. Therefore, we consider the finding
        resolved and the recommendation implemented.


C.      Drawdown Made on Basis of a Payment Advance to Another State
        Agency
The Department made a drawdown of Federal Assistance grant funds before ensuring that the
work required under the grant had been performed. Grant No. F-182-C-1 involved a $118,667
cooperative agreement project in which the Oregon State Marine Board (OSMB) would provide
a facilities engineer to plan, design, and coordinate motor boat access projects. The FWS was to
contribute $89,000 and the OSMB was to contribute $29,667 as the State match. At OSMB’s
request, the Department provided the $89,000 in February 2002. The Department then made a
drawdown of $66,750 in April 2002. However, the Department made the drawdown without any
OSMB financial reports or other data showing that OSMB had incurred costs on the project and
that the State match was being met. 5

The regulations (50 CFR § 80.15 (a) and 80.16) state that all costs must be supported by source
documents or other records as necessary to substantiate the application of funds and that
payments shall be made for the federal share of allowable costs incurred by the State in
accomplishing approved projects. In addition, 43 CFR 12.61(c) allows grantees to be paid in
advance provided they maintain or demonstrate the willingness to minimize the time elapsed
between the transfer of funds and their disbursement by the grantee.

This condition occurred because a FWS official had advised the Department’s accounts
receivable accountant that the Department could (1) receive reimbursement for $66,750 (75
percent of the federal share) since it had paid out funds to OSMB and (2) collect the remaining
25 percent of the federal share upon receipt of the documentation of the in-kind match. The
FWS official later told us that he gave this advice to the Department under the assumption that
OSMB had already provided expenditure data to support the Department’s $89,000 payment.

5
 Another drawdown of $22,250 was made in December 2003 after OSMB provided financial reports in October
2003 showing that the work was completed and that its total grant expenditures exceeded the match requirement.


                                                        8
       Recommendation
       We recommend that FWS instruct the Department that drawdowns should be made only
       when supported by documentation of the costs incurred and should not be made for
       advances to other State agencies for services to be provided.

       Department Response
       The Department stated that it concurred with the finding and recommendation and that it
       had implemented corrective action in regards to advance payments or drawdowns before
       services are performed to accomplish the grant objectives.

       FWS Response
       FWS stated that it concurred with the recommendation and that the Department’s
       proposals to implement the recommendation would be considered in the corrective action
       plan.

       OIG Comments
       While FWS and the Department concurred with the recommendation, FWS stated that the
       Department’s proposal to implement the recommendation “will be considered” in the
       corrective action plan. Therefore, additional information is needed on the specific actions
       taken or planned to resolve the finding and implement the recommendation. This
       information should be included in the corrective action plan.

D.     Personal Property Management
We selected a sample of 70 personal property (equipment) items that were acquired with Federal
Assistance funds and license revenues for review during our site visits. Of the 70 items, 54 items
cost over $5,000 and 16 items cost under $5,000.

We could not find 11 items, valued at $93,200 at the locations identified on the Department’s
inventory listing. The missing equipment included nine items costing $64,600 at the Northwest
Region office as follows: seven hand-held tag detectors ($42,900), a 30-foot trailer ($14,000),
and a plotter ($7,700). In addition, a 28-foot boat costing $21,000 that should have been at the
High Desert Region office was located at the Round Butte Fish Hatchery, and a tractor costing
$7,600 that was supposed to be at the Jewell Meadows Wildlife Area was located at the
Klaskanine Hatchery. There was no documentation showing that these 11 items had been loaned
or transferred to other locations.

The regulations (50 CFR § 80.18) and the Service Manual (522 FW 1.16) require that the State
be responsible for the accountability and control of all assets to assure that they are used for the
purpose for which they were acquired throughout their useful life. Also, 50 CFR § 80.19
requires the State to maintain current and complete property records. In addition, the Division’s
Administrative Services Policies and Procedures ASD-102 states that Regional Managers and
Division Administrators are responsible for ensuring that State property is appropriately issued,

                                                  9
monitored, and returned and another Division document entitled “Property Control” states that
Division officials must use Division property disposition or transfer request forms to transfer
both State property and federally funded property.

We believe these conditions occurred because the Northwest Region, High Desert Region, and
Jewell Meadows officials did not maintain any formal property records, such as sign in/out
registers, to document the location of the missing equipment that had been loaned or transferred
to other sites. 6 As a result, the Department could not ensure that equipment items purchased
with Federal Assistance grant funds and license funds were adequately safeguarded and were
being utilized for the intended purpose of the grants or other fish and wildlife purposes.

        Recommendation
        We recommend that FWS require the Department to resolve the issues regarding (1) the
        property on the Department’s inventory listing that could not be located at the Northwest
        Region and (2) the need to maintain formal property records when equipment assigned to
        a specific location is loaned or transferred to other locations.

        Department Response
        The Department stated that it concurred with the finding and recommendation and it is
        reviewing its current process and system needs for inventory and asset tracking. It further
        stated that its review will focus on the current system being used, current policies and
        procedures, and updated systems available for asset management and tracking.

        FWS Response
        FWS stated that it concurred with the recommendation and that the Department’s
        proposals to implement the recommendation would be considered in the corrective action
        plan.

        OIG Comments
        While FWS and the Department concurred with the recommendation, FWS said that the
        Department’s proposal to implement the recommendation “will be considered” in the
        corrective action plan. Therefore, additional information is needed concerning the
        specific actions taken or planned to resolve the finding and to implement the
        recommendation. This information should be included in the corrective action plan.




6
 Subsequent to our exit conference, Northwest Region officials provided a schedule showing the location of the
nine equipment items that were missing at the time of our site visit; however, the officials did not provide any
formal property records to document the location of the equipment items that were loaned to the other sites.


                                                        10
E.      Internal Control Weaknesses
The State Auditor’s fiscal years 2002 and 2003 Single Audits both included a finding that the
Department’s licensing office does not perform a reconciliation between the POS licensing
system and the cash register system for fax and mail order license sales. In addition, we found
that the access controls to the Department’s general support computer system (network) were not
working as intended. These two internal control weaknesses are discussed in the following
paragraphs.

Fax and Mail Order License Sales Reconciliations

The Department uses the POS licensing system to issue hunting and fishing licenses and generate
the license or tag, and then uses a cash register system to record the receipt of payment. The
cash registers record the revenue received from the sales and this information produces the daily
revenue entry into the Department’s financial system. However, the two systems are not
reconciled to ensure that the licenses generated in the POS system match the revenue received
and recorded in the cash registers.

Sound accounting controls generally include reconciliations of related data. We found that the
Department did not perform a reconciliation between the POS licensing system where the
documents are issued and the cash register system where the revenues are recorded. Department
officials said that they have not developed a system to enable the reconciliation of the two
systems due to the difficulty in matching licenses issued to revenues received during heavy
processing days. Although the revenues are deposited the day they are received, a license may
not be processed and issued through the POS system until the following day.

The State Auditor’s reports concluded that the Department is not able to reconcile revenues
received to actual licenses issued. The reports further stated that the absence of this control
increases the risk of employee fraud because a license can be issued through the POS licensing
system without the sale being recorded in the cash register system. The report recommended that
the Department strengthen its controls over cash receipts by reconciling cash register sales to the
licensing system to ensure that all cash receipts have been properly accounted for. Department
officials are aware of this weakness and are in the process of preparing a plan to replace the
current licensing system.

Computer Access Controls

We performed a limited review on the logical access controls for the automated systems 7 used in
accounting for and tracking FWS Federal Assistance grant expenditures and hunting and fishing
license sales. The review focused on controls in place to ensure the deactivation of user access
privileges to the automated systems when employees left the Department or no longer needed the
privileges to perform their jobs.



7
 The systems included in the review were the Oregon State Financial Management System (SFMS), the Oregon
State Payroll System (OSPS), the automated POS licensing system, and the Department’s general support system
(network).


                                                      11
Industry standards and Department policy dictate that an employee’s access privileges be
removed in a timely manner when these privileges are no longer required to perform day-to-day
job functions. We found that the Department could make improvements in its controls over
access to the Department’s network. Of the 681 user accounts identified with access privileges
to the Department’s network, we identified 90 active network user accounts that should have
been deactivated because the employees had left the organization.

We believe this condition occurred primarily because the Department’s Information Systems
Division staff were not notified promptly of employee departures/terminations and were not
authorized to cancel system access without such notification. As a result, the Department’s
procedures did not provide reasonable assurance that computer resources such as data files and
applications were protected against unauthorized modification, disclosure, and loss.

       Recommendations:

       We recommend that FWS:

       1. Ensure that the Department acquires a new POS licensing system that will strengthen
       existing controls over cash receipts by providing features that allow for reconciling cash
       register sales to the licensing system to ensure that all cash receipts have been accounted
       for properly. If a new system is not acquired, FWS should ensure that the Department
       performs reconciliations of cash register receipts to the current licensing system.

       2. Revise procedures to ensure prompt notification and removal of system access when
       an employee resigns or when an employee’s duties no longer require access to the
       Department’s system.

       Department Response
       The Department did not specifically state whether it agreed or disagreed with the findings
       and recommendations. Regarding recommendation 1, the Department stated that it had
       issued a request for proposal to replace the existing point of sale licensing system because
       reprogramming the current cash register system and/or the POS system to provide
       increased reconciliation functions would not be cost effective. Regarding
       recommendation 2, the Department stated that the Information Systems Division would
       be provided with a list of monthly terminations from the State personnel system to verify
       the termination information that is also provided manually. The Department further
       stated that the Information Systems Division’s security policies were updated on April 1,
       2005.

       FWS Response
       FWS stated that it concurred with the recommendations and that the Department’s
       proposals to implement the recommendations would be considered in the corrective
       action plan.




                                                12
OIG Comments
FWS concurred with the recommendations, and stated that the Department’s proposals to
implement the recommendations “will be considered” in the corrective action plan.
Therefore, additional information is needed concerning the actions taken or planned to
resolve the finding and to implement the recommendations. This information should be
included in the corrective action plan.




                                      13
                                                                   Appendix 1
                                                                   Page 1 of 3


            OREGON DEPARTMENT OF FISH AND WILDLIFE
            FINANCIAL SUMMARY OF REVIEW COVERAGE
                JULY 1, 2001 THROUGH JUNE 30, 2003
               Grant     Claimed                        Grant      Claimed
Grant No.     Amount     Costs[1]        Grant No.     Amount      Costs[1]
F-97-R-28      $74,071    $58,738        F-111-D-198    155,375      148,060
F-97-R-29      122,097     99,625        F-111-D-199    567,200      485,893
F-97-R-30      123,337    105,407        F-111-D-200     26,835       28,366
F-104-R-22     183,293    172,275        F-111-D-201    200,000      186,108
F-104-R-23     191,746    187,033        F-111-D-202     38,660       30,208
F-104-R-24     193,694    161,737        F-111-D-203    191,000      184,230
F-108-R-22     254,228    207,234        F-111-D-204     46,000       45,206
F-108-R-23     271,448    135,182        F-111-D-205     52,800           0
F-108-R-24     158,420    136,226        F-111-D-206     30,000       29,456
F-111-D-168    149,900    139,370        F-111-D-207    100,000      112,381
F-111-D-169    265,600    253,319        F-111-D-208     66,000           0
F-111-D-170     69,000     72,545        F-111-D-209     78,000       64,084
F-111-D-171    141,425    141,425        F-111-D-210     95,000       72,211
F-111-D-175    144,380    171,470        F-111-D-211    115,000      111,652
F-111-D-182    164,800    177,149        F-111-D-212     65,000       52,753
F-111-D-185    160,000          0        F-111-D-213     28,700       23,992
F-111-D-186    114,500    119,417         F-115-R-20    271,280      271,280
F-111-D-188     13,000     20,100         F-115-R-21    289,513      289,513
F-111-D-190    631,250    840,043         F-115-R-22    292,102      291,561
F-111-D-192    200,291    216,437         F-119-R-17    272,820      272,820
F-111-D-193    136,000    142,772         F-119-R-18    332,035      329,249
F-111-D-194     35,000     30,445         F-119-R-19    333,121      317,356
F-111-D-195     97,200    100,589         F-121-D-16   1,043,805     995,841
F-111-D-196     37,500     32,950         F-121-D-17   1,116,355   1,027,823
F-111-D-197    165,000    163,955         F-121-D-18   1,113,991     933,495




                                    14
                                                                     Appendix 1
                                                                     Page 2 of 3


       OREGON DEPARTMENT OF FISH AND WILDLIFE
       FINANCIAL SUMMARY OF REVIEW COVERAGE
           JULY 1, 2001 THROUGH JUNE 30, 2003
               Grant     Claimed                       Grant      Claimed
Grant No.     Amount     Costs[1]        Grant No.    Amount      Costs[1]
F-128-R-15     426,342    412,604         F-163-R-8    406,385     366,978
F-128-R-16     455,219    452,194         F-165-D-2     50,000           0
F-128-R-17     459,848    459,848         F-165-D-3    145,044      35,743
F-136-R-14     140,394    127,458         F-166-D-4   1,892,472   1,780,790
F-136-R-15     149,904    143,397         F-166-D-5   2,079,983   1,965,528
F-136-R-16     211,422    180,358         F-166-D-6   2,103,891   2,020,752
F-138-AE-14    317,701    392,032         F-167-R-2    243,770     238,165
F-138-AE-15    339,221    429,509         F-167-R-3    247,196     241,710
F-138-AE-16    359,110    342,828         F-168-R-4     51,127      50,819
F-144-R-12     139,466    136,336         F-168-R-5     55,360      52,887
F-144-R-13     148,973    145,672         F-168-R-6     55,913      55,314
F-144-R-14     152,351    149,173         F-171-R-3    696,008     698,743
F-154-R-7      232,762    187,087         F-171-R-4    743,152     742,504
F-154-R-8      204,416    153,574         F-171-R-5    849,348     823,370
F-154-R-9      218,262    218,262         F-177-D-2    108,600      99,205
F-157-R-10     115,119    106,109         F-177-D-3     28,091      28,091
F-157-R-8      118,272     94,883         F-177-D-4     12,001       4,835
F-157-R-9      114,151    101,363         F-178-R-2     71,491      52,377
F-160-R-6       83,028     83,028         F-178-R-3     76,332      72,921
F-160-R-7       88,791     32,945         F-178-R-4     77,087      76,006
F-160-R-8       89,688     73,758         F-181-D-1    124,362     120,495
F-162-R-6       95,385     48,897         F-181-D-2    132,711     128,628
F-162-R-7      115,483    106,069         F-181-D-3    123,894     105,522
F-162-R-8      116,759     78,318         F-182-C-1    118,667     148,285
F-163-R-6      378,500    351,678         F-183-D-1     39,840      24,527
F-163-R-7      404,138    393,637         F-183-D-2     40,245      24,065




                                    15
                                                                                                    Appendix 1
                                                                                                    Page 3 of 3

                OREGON DEPARTMENT OF FISH AND WILDLIFE
                FINANCIAL SUMMARY OF REVIEW COVERAGE
                    JULY 1, 2001 THROUGH JUNE 30, 2003
                         Grant      Claimed                                       Grant        Claimed
        Grant No.       Amount      Costs[1]                     Grant No.       Amount       Costs[1]
        F-184-T-1        109,108     101,324                    W-71-HS-30         477,490        389,971
        FW-18-D-25       181,500     175,256                    W-71-HS-31         592,196        657,941
        FW-18-D-26       140,684     134,882                    W-71-HS-32         600,047        672,126
        FW-20-T-17       275,297     248,473                     W-72-D-25         442,003        438,044
        FW-20-T-18       284,561     257,246                     W-72-D-26         396,644        396,644
        FW-20-T-19       290,456     230,569                     W-73-D-23         231,900        228,815
        FW-21-D-16        38,534       30,039                    W-73-D-24         228,335        225,669
        FW-21-D-17        35,483       34,800                    W-87-R-18         384,502        234,592
        W-9-D-60         306,500     289,742                     W-87-R-19         154,949        154,936
        W-9-D-61         261,809     252,565                     W-88-HS-9           87,500         87,500
        W-22-D-56        630,000     473,722                    W-88-HS-10           88,859         88,859
        W-22-D-57        566,099     373,413                    W-88-HS-11           87,500         32,810
        W-32-D-21        285,999     284,341                      W-90-R-8         572,809        534,222
        W-32-D-22        233,655     229,846                      W-90-R-9         361,794        359,210
        W-38-D-49      1,269,354    1,177,741                     W-96-C-2         384,715        240,285
        W-38-D-50      1,435,101    1,045,354                     W-96-C-3         190,623          72,083
        W-45-D-50        470,000     456,880                      W-97-R-2           91,848         90,100
        W-45-D-51        428,770     414,845                      W-97-R-3           81,496         75,992
        W-46-D-47        116,384     109,804                      W-98-R-1         649,935        616,218
        W-46-D-48        105,616     104,092                      W-98-R-2         786,230        786,230
        W-47-D-48        211,000     191,470                                   $42,792,491    $39,484,628
        W-47-D-49        186,798     186,504
        W-48-D-48        216,556     212,876
        W-48-D-49        174,723     174,723
        W-55-D-42        195,375     191,814
        W-55-D-43        186,307     171,802

 [1] The amounts shown include the Department’s incurred costs and the in-kind contributions during the audit
period.




                                                        16
                                                   Appendix 2



OREGON DEPARTMENT OF FISH AND WILDLIFE
            SITES VISITED


                    Headquarters
      Department of Fish and Wildlife, Salem, OR



                      Regions
            High Desert Region, Bend, OR
          Northwest Region, Clackamass, OR



                    Wildlife Areas
                   Jewell Meadows
                    Sauvie Island
                     White River



                   Fish Hatcheries
                      Klaskanine
                     Oak Springs
                     Round Butte
                    Wizard Falls




                         17
                                                                                    Appendix 3

           OREGON DEPARTMENT OF FISH AND WILDLIFE
                  STATUS OF AUDIT FINDINGS
                   AND RECOMMENDATIONS


Recommendations              Status                             Action Required

A, C, D, E.1, and   Management Concurs;           Provide a corrective action plan that
      E.2           Additional Information        identifies the actions taken or planned to
                    Needed                        resolve the findings and implement the
                                                  recommendations. The plan should also
                                                  include the target date and the official
                                                  responsible for implementation of each
                                                  recommendation. The unimplemented
                                                  recommendations remaining at the end of
                                                  90 days (after December 1, 2005) will be
                                                  referred to the Assistant Secretary for Policy,
                                                  Management and Budget for resolution
                                                  and/or tracking of implementation.


       B            Finding Resolved and          None
                    Recommendation
                    Implemented




                                             18
